                              OIG INFORMATION DIGEST
                               Un ited States Nuclear Regulato ry Commission
                                              NUREG/BR -0304


            THEFT IN NRC OFFICE SPACE
                              On August 16, 2004, be-
                              tween 11:30 a.m. and          Security Awareness and         would have revealed that
                              11:47 a.m., a female pos-     Vigilance by NRC Staff         it was not and did not re-
                              ing as an NRC employee                                       semble an NRC badge.
      Volume 3, No. 1         gained unauthor-                     According to the
                              ized entry to NRC                    subject, she en-        Interior Security Identifi-
        March 2005
                              headquarters and                     tered NRC prop-         cation Vigilance
                              wandered through                     erty from the street
Inside this issue:            the One White Flint                  and walked behind       According to the subject,
                              North and Two                        One White Flint         once inside the NRC
                              White Flint North buildings   North to the door located      buildings, she easily
Theft in NRC Office     1-2   taking cash from unat-        on the Two White Flint         passed through secured
Space
                              tended cubicles and of-       North side of the con-         card-keyed doors by fol-
Misused Credit Card     2-4   fices. The subject’s entry    nector between the two         lowing NRC
Scenarios                     into the NRC buildings        headquarters buildings.        employees
Identity Theft          4     took place during a “Code     There she pretended to         who opened
                              Orange” alert day.            be an NRC employee on          the doors
                                                            a cigarette break. She         with their
                              The OIG investigation         waved to two NRC em-           identification
                              identified the subject                       ployees         badges. In
                              and, subsequent to her                       walking on      each of
                              apprehension, she                            the inside of   these in-
                              agreed to cooperate                          the connec-     stances, the employees
Special points of in-         with OIG. She was                            tor and indi-   opened the doors, al-
terest:                       interviewed to deter-                        cated her       lowed her to enter behind
                              mine how she gained                          desire to       them, and did not chal-
• Protect Your Valuables in   entry to the NRC head-                       enter the       lenge her identification.
  the Work Place              quarters buildings and        building. Two unidenti-        Additionally, although she
                              how she was able to move      fied NRC employees             was confronted by sev-
• Maintain Vigilance Over     freely once inside the        unlocked the door and,         eral NRC employees who
  Non-NRC Employees           buildings.                    without an identification      questioned her presence
                                                            check, allowed her to          in two different offices,
• More on Identity Theft      As a result of this inter-    enter the connector. As        these employees did not
                              view, OIG learned of the      part of her impersona-         ask her name or examine
                              following sequence of         tion, the subject was          the badge she displayed
                              events that allowed a non-    wearing a badge on her         on her collar.
                              NRC employee to enter         collar. A cursory exami-
                              NRC headquarters and          nation of the badge by
                              commit theft.                 the NRC employees
Page 2                                                                                     OIG Information Digest



  THEFT IN NRC OFFICE SPACE                           (cont. from page 1)



Security Reminders for Employees

It is the duty of every NRC employee to challenge unfamiliar individuals trying to access NRC office
space if those individuals do not have an appropriate badge or their badge is not visible. Do not allow
anyone to “piggy-back” on your ID badge unless you recognize them. If you do not want to confront
anyone, use the nearest telephone to contact the One White Flint North guard desk at 415-2069 or the
Two White Flint North guard desk at 415-5702 for assistance. In this day of elevated security, it is al-
ways wise to err on the inquisitive side rather than allow a security breach that could result in harm to

MISUSED CREDIT CARD SCENARIOS
individuals or the compromise of         the credit card, and - you         2. A cus-
sensitive or classified information.     guessed it - a switch had          tomer at a
Everyone today knows about the           been made. An expired              local res-
dangers of identity theft. We read       similar credit card from the       taurant
about it in the newspaper, and we        same bank was in the wal-          paid for
learn about it from the radio and        let. The thief broke into his      his meal
from television. It is all very real     locker at the gym and              with his credit card. The bill for the
and true and it can happen to any-       switched cards.                    meal came, he signed it, and the
one. Here are a few more exam-                                              waitress folded the receipt and
ples of how your                         Verdict: The credit card is-       passed the credit card along. Usu-
identity can be sto-                     suer said since the victim         ally, he would just take it and place
len.                                     did not report the card            it in his wallet or pocket. This time,
                                         missing earlier, he would          however, he actually took a look at
1. A friend went to                      have to pay the amount             the card and, lo and behold, it was
the local gym and                        owed to them. How much             the expired card of another person.
placed his belong-                       was he told he would have
ings in the locker.                      to pay for items he did not             He called the waitress and she
After his workout                        buy? He                                 looked perplexed. She took it
and a shower, he came out, saw           was told                                back, apologized, and hurried
the locker open, and thought to          $9,000!                                 back to the counter under the
himself, "Funny, I thought I locked      But, accord-                            customer’s watchful eye. All
the locker. " He dressed and just        ing to the                              the waitress did while walking
flipped the wallet to make sure all      law, con-                               to the counter was wave the
was in order. Everything looked          sumers are                              wrong expired card to the
okay - all cards were in place.          only respon-                            counter cashier, and the
                                         sible for                               counter cashier immediately
A few weeks later his credit card bill   $50! Why                                looked down and took out the
came - a whopping bill of $14,000!       were no calls made to ver-         real card. No exchange of words --
He called the credit card company        ify the amount charged?            nothing! She took it and came back
and started yelling at them, saying      Small amounts rarely trig-         to the man with an apology.
that he did not make the transac-        ger a "warning bell" with
tions. Customer care personnel           some credit card compa-            Verdict: Make sure the credit cards
verified that there was no mistake       nies. It just so happens           in your wallet are yours. Check the
in the system and asked if his card      that all the small amounts         name on the card every time you
had been stolen. "No," he said, but      added up to one big one!           sign for something and/or the card
then took out his wallet, pulled out                                        is taken away for even a short pe-
Volume 3, No. 1                                                                                                Page 3



MISUSED CREDIT CARD SCENARIOS                                       (cont. from page 2)

 riod of time. Many people just     card, so now the customer paid          Mailbox Theft
 take back the credit card with-    close attention to what the
 out even looking at it, thinking   young man was doing. He set             Another way thieves can
 that it has to be theirs.          his phone on the counter, leav-         steal your identity is by taking mail
                                    ing it open. About five seconds         from your mailbox. In one
 For your own peace of mind,        later, the customer heard the           neighborhood, a thief who stole
 develop the habit of checking chime that tells you that the pic-           someone’s mail hit about 200 other
 your credit card                          ture has been saved. Now         people in that same neighborhood.
 each time it is                           the customer was standing
 returned to you                           there struggling with the        He used a stolen
 after a transac-                          fact that this boy just took     credit card to buy
 tion!                                     a picture of his credit card.    a new computer
                                           Yes, he played it off well,      and made a
 3. Yesterday a                            because had they not had         spreadsheet to
 customer went                             the same kind of phone,          log Social Secu-
 into a pizza restaurant to pick the customer probably would                rity numbers,
 up an order that he had called never have known what hap-                  bank accounts,
 in. He paid by using his Visa pened. Needless to say, the                  and other per-
 Check Card which, of course, customer immediately canceled                 sonal information he got from their
 is linked directly to his check- his card as he was walking out            mail. Stealing mail to assume
 ing account. The young man         of the pizza parlor. Be aware of        someone’s identity is big business
 behind the counter took his        your surroundings at all times.         anytime, anywhere in the U.S., but
 card, swiped it, then laid it flat Whenever you are using your             tax season can be especially fruit-
 on the counter as he waited        credit cards, take caution and          ful as W-2 forms and other sensi-
 for the approval, which is         don't be careless. Notice who is        tive information containing bank
 pretty standard procedure.         standing near you and what              and Social Security numbers arrive
                                    they are doing when you use             in mailboxes.
 While the customer waited,         your card. Be aware of cell
 the young man picked up his phones because many have a                     Thieves today are not the same as
 cell phone and started dialing. camera feature these days.                 they were 5 or 10 years ago. They
 The customer noticed the                                                   have become very sophisticated at
 phone because it is the same Verdict: When you are in a res-               mining pieces of information to as-
 model he has, but nothing          taurant and the waiter/waitress         sume the identities of others. It’s
 seemed out of the ordinary.        brings your card                        this type of sensitive data that en-
 Then he heard a click that         and receipt for you                     ables scammers to take full advan-
 sounded like his phone             to sign, make sure                      tage of other mail they steal from
 sounds when he takes a pic- you scratch the                                you–namely those unsolicited di-
 ture. The young man then           number off. Some                        rect mail applications for pre-
 gave him back his card but         restaurants are                         approved credit cards, loans, or
 kept the phone in his hand as using only the last                          refinancing opportunities which
 if he was still pressing buttons. four digits, but a lot of them are       have increased by 5 billion pieces
                                    still putting the whole thing on        since the National Do Not Call
 Meanwhile, the customer was there. Anyone who has been a                   Registry went into effect in October
 thinking…”I wonder what he is victim of credit card fraud knows            2003. Some individuals will even
 taking a picture of,” oblivious    it is not fun. The truth is that        go to extreme measures to steal
 to what was really going on. It they can get you even when                 your identity by rifling through your
 then dawned on him. The            you are careful, but don't make         trash. Some identity thieves follow
 only thing there was his credit it easy for them.
Page 4


         U NITED S TATES N UCLEAR          MISUSED CREDIT CARD SCENARIOS                          (cont. from page 3)
         R EGULATORY C OMMISSION
             NUREG/BR-0304                     mail trucks to steal the delivered incoming mail. With your So-
                                               cial Security or bank account numbers from some pieces of
                                               stolen mail, they just complete the applications to get a credit
         HOTLINE NUMBER                        card in your name.
          1-800-233-3497                       In about 15 minutes, you can stop receiving much of the most
                                               shred-worthy mailings:
             TDD LINE
                                               •      Call (888) 567-8688 to remove your name from lists
          1-800-270-2787                              sold to credit card companies
                     USNRC                            by consumer reporting firms
         Office of the Inspector General              such as Equifax and Experian.
              11545 Rockville Pike
                Mail Stop T 5D28               •      Stop solicitations from the Di-
             Rockville, MD 20852
                                                      rect Marketing Association’s
             Phone: 301-415-5930                      5,200 member companies,
              Fax: 301-415-5091                       which represent 80 percent of
                                                      these marketers. Get forms for $5 at
                                                      www.dmaconsumers.org/cgi/offmailinglist. Or write for
                                                      free forms to the Direct Marketing Association, Mail
  WE’RE ON THE WEB!                                   Preference Service, P.O. Box 643, Carmel, NY 01512.

   GO TO THE NRC                               •      Remove yourself from some mortgage refinancing and
  WEBSITE, CLICK ON                                   home equity loan offers by calling the Acxiom U.S.
                                                      Consumer Hotline at (877) 774-2094 or writing to Data-
 INSPECTOR G ENERAL,                                  Quick, Attn: Opt-out Department, 9620 Towne Center
  CLICK ON H OTLINE,                                  Drive, San Diego, CA 92121.

  AND THEN CLICK ON
    THE ON-LINE FORM
  AND FILL OUT YOUR
           COMPLAINT.


IDENTITY THEFT (Source: Federal Trade Commission)
Identity theft is the number one             fraud was the most common
consumer complaint in a new Fed-             form of reported identity theft,
eral Trade Commission (FTC) re-              followed by phone or utilities
port. The FTC on Tuesday, Febru-             fraud, bank fraud, and employ-
ary 1, released its annual report            ment fraud. The major metro-
detailing consumer complaints filed          politan areas with the highest
with the FTC in 2004. For the fifth          per-capita rates of reported iden-
year in a row, identity theft topped         tity theft were Phoenix, Mesa,
the list of complaints, accounting for       and Scottsdale, AZ; Riverside,
39 percent of the 635,173 con-               San Bernardino, and Ontario,
sumer fraud complaints filed with            CA; and Las Vegas, and Para-
the agency last year. Credit card            dise, NV.
